Final Assessment Report 06-02, March 28, 2006, “GPO Network Vulnerability
Assessment”


The GPO Office of the Inspector General (OIG) contracted with a consulting firm
that provides network security services to public and private sector enterprises to
conduct an assessment of GPO’s enterprise network security infrastructure. The
assessment was conducted to evaluate the level of network security controls in
place to help protect GPO’s systems and data from unauthorized access and
compromise. The OIG tasked the consultant to perform an external and internal
vulnerability assessment of GPO’s enterprise network. The external work
examined the fortified boundary (perimeter) of GPO’s network. The internal
assessment examined GPO’s network infrastructure and network-attached
resources, including hosts, servers, and workstations. The internal assessment
also included an examination of wireless communication activity. The OIG
issued a sensitive report that found room for improvement and made
recommendations to further strengthen existing security controls on GPO’s
network. GPO management concurred with each of the report’s
recommendations and has initiated responsive corrective actions.
